           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       SOCIAL SECURITY FUNDS
              HELD IN
      DORMANT BANK ACCOUNTS


   February 2004   A-02-03-23080




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY


MEMORANDUM

Date:   February 18, 2004                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Social Security Funds Held in Dormant Bank Accounts (A-02-03-23080)



        OBJECTIVE

        Our objectives were to determine (1) the amount of Social Security funds held in
        dormant bank accounts for beneficiaries in the New York region who were determined
        to be deceased based on recent investigations and (2) whether the Social Security
        Administration (SSA) could recover these funds.

        BACKGROUND
        As part of its efforts to identify erroneous payments made via direct deposits, SSA, in
        conjunction with the Office of the Inspector General (OIG), instituted the Medicare Non-
        Usage Project (MNUP). The MNUP compared SSA data on older beneficiaries in
        current pay status to Medicare claims data. Through this nationwide data match, SSA
        identified beneficiaries receiving Old-Age, Survivors and Disability Insurance (OASDI)
        benefits who had not submitted any Medicare claims during the previous 18-month
        period. SSA attempted to contact the beneficiaries, beginning with the oldest and
        working in two phases, to determine whether they were still alive and entitled to
        benefits. If SSA was unable to locate a beneficiary, it suspended the beneficiary’s
        payments and forwarded the case to the OIG’s Office of Investigations (OI).

        OI’s New York division investigated 95 beneficiaries whom SSA was unable to locate.
        OI found some beneficiaries alive, some deceased, and some instances where the
        beneficiary had died but someone else was fraudulently receiving the deceased
        beneficiary’s payments. To date, 15 individuals have been arrested for illegally
        receiving other Social Security beneficiaries’ funds after their deaths. OI also identified
        15 accounts with no official evidence of the individuals’ deaths or whereabouts.
        Through their investigations, OI staff concluded that the 15 beneficiaries were
        deceased, even though they were unable to locate official death certificates for them.
        The bank accounts for these beneficiaries, which had been receiving OASDI benefits
Page 2 – The Commissioner


through direct deposit, contained over $1.3 million. Direct deposit of Social Security
benefits was the only activity for these bank accounts for a period of many years. Other
OI regions have identified eight similar cases with bank accounts totaling $538,139.

Under current policy, SSA initiates a United States Department of Treasury (Treasury)
reclamation procedure when SSA learns a beneficiary is deceased and Social Security
funds were erroneously paid into the beneficiary’s bank account via direct deposit after
his or her death.1 SSA staff indicate that SSA generally will only initiate a Treasury
reclamation to recover payments with official proof of a date of death. Once a
reclamation request is electronically initiated, Treasury will attempt to reclaim up to an
amount equal to the last 6 years’ worth of erroneous payments from the financial
institution involved, regardless of when they were made. Reclamations have not been
initiated for the 15 cases identified by OI since death certificates could not be found for
the beneficiaries.

Under applicable State law, after a specified period of time, generally 5 to 6 years, funds
in inactive, or dormant, bank accounts are forwarded to the applicable State treasury
departments. This process is known as escheatment. State treasuries will hold
escheated funds until someone who can prove a legitimate claim requests them.
Treasury has no policy to reclaim escheated funds. Its staff may attempt to pursue
these funds, but generally a reclamation request that involves escheated funds is
returned to SSA. SSA personnel have had some success in retrieving escheated funds
by contacting State treasury departments and financial institutions even though the
Program Operations Manual System (POMS) does not provide guidance on such
cases. A draft section of the POMS attempts to address the issue of escheated funds
by suggesting regional personnel contact their regional attorneys to discuss options for
determining a course of action. Regional staff have expressed frustration at not
consistently being able to retrieve funds clearly owed to SSA and not having policy in
place to provide better guidance.

RESULTS OF REVIEW

SSA deposited over $1 million of payments into the accounts of 15 beneficiaries we
determined to be deceased. While official proof of death for these beneficiaries was not
located, there was no evidence collected indicating these individuals were alive. SSA
deposited funds until benefits were suspended in 2002 as a result of the MNUP. To
date, SSA has not made official determinations of death for these beneficiaries, so the
Social Security funds have not been classified as erroneous payments. Accordingly,
SSA has not sought to reclaim the funds through Treasury’s reclamation process even
though Treasury’s policies would allow for the collection of these funds upon SSA’s
presumption of death.



1
 Since all of the subjects of the OI investigation received SSA payments through direct deposit, the
discussion in this report is limited to the reclamation process as it pertains to payments made through
direct deposit.
Page 3 – The Commissioner


DORMANT ACCOUNTS CONTAINING SSA FUNDS

                        The dormant bank accounts for the 15 missing beneficiaries
Over $1 Million         identified contained over $1.3 million. Our analysis concluded
Held in Dormant         that SSA deposited $1,069,159 into these beneficiaries’ accounts
Bank Accounts Is        after the dates we determined, based on investigations and bank
Eligible for            records, to be their dates of death (see Table 1). Treasury’s
Reclamation             policy allows for the reclamation of an amount equal to the last
                        6 years’ worth of payments made, regardless of when they were
made. An exception to the 6-year rule applies if the bank account balance at the time of
the reclamation exceeds the total amount of post-death payments, in which case
Treasury seeks the total amount of post-death payments. Since each of the accounts
we reviewed contained more than the total amount of SSA funds deposited after the
determined date of death, Treasury’s exception to its 6-year rule is applicable and the
entire $1,069,159 is eligible for recovery.2 In addition to the SSA funds, the Agency also
paid Medicare premiums on the beneficiaries’ behalf totaling $76,734 since their
disappearance, which is fully retrievable by SSA.

                Table 1: Funds Paid to Beneficiaries Determined to be Dead
                                 Total         Total SSA Funds     SSA Payments
                               Amount of        Deposited Into       Made to
                  Account    Funds in Bank      Account After      Medicare After
                                Account              Death            Death
                      1              $90,000            $69,448             $7,610
                      2              155,000            105,128              5,552
                      3              178,000            174,565              7,772
                      4              134,000            124,659              7,225
                      5              100,000              76,748             5,552
                      6              100,000              79,371             3,878
                      7               13,060              11,976             1,605
                      8              147,000            146,372              9,939
                      9               43,738              19,819             9,930
                     10              130,000            103,962              5,228
                     11               23,000              21,180               899
                     12               23,000              16,635               899
                     13               70,891              45,449             6,778
                     14               26,000              25,643                  0
                     15               67,000              48,204             3,867
                    Total         $1,300,689         $1,069,159            $76,734




2
    31 C.F.R. § 210.10(d).
Page 4 – The Commissioner


In addition to these 15 dormant account cases, 8 other beneficiaries are presumed to be
deceased as the result of other OI investigations related to the MNUP. These eight
beneficiaries had bank accounts totaling $538,139. The balances of these accounts
ranged from $12,289 to $179,000, with an average of $67,267.

POLICIES RELATED TO DETERMINING DATE OF DEATH

SSA’s current policy delays, and may prevent, it from reclaiming any of the funds paid to
the 15 beneficiaries identified. To reclaim these funds, the Agency must first presume
that the beneficiaries are dead and establish dates of death. Once a date of death is
determined by the Agency, the funds paid after the date of death would be considered
erroneous payments and SSA could reclaim them through Treasury’s reclamation
process. Treasury defers to an agency’s policies when determining the date of death to
be used in the reclamation process.

The presumption of death is widely accepted in State and Federal courts to determine
entitlement to property and is codified in SSA’s regulations.3 For the purpose of
determining eligibility to benefits for survivors and dependents, SSA will presume a
person is dead if evidence shows that the individual has been missing for at least
7 years. If the presumption of death is not rebutted, SSA will use as the date of death
the date of disappearance, the date ending the 7-year period, or some other date
depending upon what the evidence shows is the most likely date of death.4

In a 1999 policy interpretation ruling, SSA extended this regulatory presumption of
death to the termination of entitlement to benefits.5 According to this policy, SSA will
presume a person is dead if the individual has been missing for 7 years AND benefits
have remained in suspension for a 7-year period. Absent evidence to the contrary, SSA
will use as the date of death the date of disappearance, the date ending the 7-year
period, or some other date depending upon what the evidence shows is the most likely
date of death.6

Although the 15 beneficiaries identified have been missing for at least 7 years, SSA’s
current policies will not allow for the presumption of death, and the termination of
entitlement, since their payments have only been suspended since 2002. SSA could
wait until 2009, when the benefits have been suspended for 7 years, to terminate
entitlement, presume dates of death, and then attempt to reclaim the erroneously paid
funds.




3
    Social Security Ruling (SSR) 99-1p (4/14/99); 20 C.F.R. § 404.721.
4
    20 C.F.R. § 404.721.
5
    SSR 99-1p.
6
    Id.
Page 5 – The Commissioner


The 7-year delay due to the required suspension of benefits is not necessary and may
make it more difficult to recover the erroneous payments. Additionally, the money will
most likely not be in the bank accounts after the 7-year delay. By then, the funds will
have been escheated to the appropriate State treasury department, making reclamation
of the funds extremely difficult as Treasury has no policy to reclaim escheated funds.
Finally, proposed rules would change Treasury’s reclamation process by further limiting
reclaimable funds to those made only in the 7-year period prior to the date of the
reclamation request.7 Treasury has proposed this rule since it has concluded that
delayed reclamations are particularly difficult and time-consuming to process since
neither agencies nor financial institutions retain records indefinitely and very old
payment records or related account information are frequently not available.

CONCLUSION AND RECOMMENDATIONS
According to Treasury policies, SSA may initiate bank reclamations for beneficiaries it
presumes are deceased, even if official death certificates cannot be located for the
beneficiaries. Retrieval of funds in dormant bank accounts would not subject a
beneficiary to any penalty, since proof of a beneficiary’s living status would entitle him or
her to any past benefits that had been recovered by SSA. SSA’s inaction may risk the
loss of funds paid to beneficiaries determined to be dead due to the statute of limitations
being established by Treasury for reclamation procedures and/or the escheatment of
the funds to a State.

We recommend that SSA:

1. Change its policy regarding the presumption of death for purposes of reclaiming
   erroneously paid funds to eliminate the need for having benefits in suspension for
   7 years where evidence to presume a person’s death exists, as defined by
   20 C.F.R. 404.721.

2. Use its revised policy to establish dates of death for the 15 beneficiaries highlighted
   in our report and the other 8 similar cases investigated.

3. Initiate Treasury reclamations to retrieve SSA funds held in the dormant bank
   accounts of the beneficiaries highlighted in this report.

4. Request that the Department of Health and Human Services’ Centers for Medicare
   and Medicaid Services return all of the Medicare premium payments made on behalf
   of the beneficiaries identified in this report.




7
    Federal Government Participation in the Automated Clearing House, 68 Fed. Reg. 50,672 (2003).
Page 6 – The Commissioner


AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix C for the text of SSA’s
comments.




                                             James G. Huse, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CFR        Code of Federal Regulations
MNUP       Medicare Non-Usage Project
OASDI      Old-Age, Survivors and Disability Insurance
OI         Office of Investigations
OIG        Office of the Inspector General
POMS       Program Operations Manual System
SSA        Social Security Administration
SSR        Social Security Rulings
Treasury   Department of Treasury
                                                                      Appendix B

Scope and Methodology
Our review followed an investigation of beneficiaries receiving Old-Age, Survivors and
Disability Insurance benefits, who had not submitted any Medicare claims during the
18-month period prior to the investigation and subsequently, could not be located. The
investigation concluded that 15 beneficiaries were dead and not entitled to Social
Security benefits, even though official records of death could not be located.
Additionally, we surveyed to determine the number of similar dormant account cases
investigated and the dollar amounts in those accounts.

We calculated the amount of Social Security funds contained in the 15 beneficiaries’
bank accounts through direct deposits. To accomplish our objectives, we reviewed
investigation reports for each case to determine the likely date of death. We also spoke
with bank officials to confirm the dollar amounts contained in each bank account.

We accessed Payment History Update System records to identify the payments made
to these accounts from the established dates of death to the last payments made. We
also calculated the amount of Medicare premiums paid on behalf of the 15 beneficiaries
from their determined dates of death.

We contacted Treasury personnel to discuss their policy regarding evidence required for
establishing a date of death to initiate a reclamation of Government funds. We also
discussed their regulations regarding accounts that have been escheated to the State.
We learned of pending Treasury regulations that seek to further limit the number of
years Treasury will go back to collect funds.

We contacted Social Security Administration (SSA) regional staff to discuss their efforts
to reclaim escheated funds and other payments that Treasury would not or could not
pursue, and their success in doing so. We also obtained a draft SSA Program
Operations Manual System section which seeks to provide consistent guidance
regarding the reclamation of escheated funds.

Additionally, we examined the applicable State recovery laws and practices for dormant
accounts and any practices used by other Federal agencies that have addressed similar
circumstances. We also requested a legal opinion from the Office of Counsel to the
Inspector General regarding SSA’s ability to retrieve funds from beneficiaries’ dormant
bank accounts.

We conducted our field work in the New York Office of Audit between April and
September 2003. We conducted our audit of the Operations Analysis Section of the
Northeast Program Service Center in accordance with generally accepted government
auditing standards.
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                    73-24-1050


Date:      February 5, 2004                                                     Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Social Security Funds Held in Dormant
           Bank Accounts" (A-02-03-23080)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT
“SOCIAL SECURITY FUNDS HELD IN DORMANT BANK ACCOUNTS” (AUDIT NO.
A-02-03-23080)


Thank you for the opportunity to review and comment on the draft report. We support the
recommendations for changing our policy, and ensuring that benefit payments and Medicare
premiums paid after the death of a beneficiary are recovered and returned to the trust funds. Our
response to the specific recommendations, and some technical comments, are provided below.

Recommendation 1

The Social Security Administration (SSA) should change its policy regarding the presumption of
death for purposes of reclaiming erroneously paid funds to eliminate the need for having benefits
in suspension for 7 years where evidence to presume a person’s death exists, as defined by
20 C.F.R. 404.721.

Response

We agree. We will consider changing the policy to have a 2 year time frame to have benefits in
suspension, as opposed to eliminating the provision altogether.

Recommendation 2

SSA should use its revised policy to establish dates of death for the 15 beneficiaries highlighted
in our report and the other 8 similar cases investigated.

Response

We agree and will implement the recommendation when the policy change is made.

Recommendation 3

SSA should initiate Treasury reclamations to retrieve SSA funds held in the dormant bank
accounts of the beneficiaries highlighted in this report.

Response

We agree and will initiate reclamation action on those funds identified in dormant accounts,
based on the policy update to Program Operations Manual System (POMS).




Recommendation 4


                                                C-2
SSA should request that the Department of Health and Human Services’ Centers for Medicare
and Medicaid Services return all of the Medicare premium payments made on behalf of the
beneficiaries identified in this report.

Response

We agree. When action is taken to terminate benefits to those beneficiaries who are deceased, or
presumed deceased, the system will automatically perform the necessary trust fund adjustments.
This system capability has been in place since December 2002.




                                              C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Audit Manager, New York Office of Audit, (212) 264-5295

Acknowledgments

In addition to those named above:

   John Grasso, Assistant Special Agent in Charge, Office of Investigations

   Denise Ramirez, Program Analyst, Office of Audit

   Amy Thompson, Attorney, Office of Counsel to the Inspector General

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-03-23080.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
